         OFFICE OF
         INSPECTOR
         GENERAL
         UNITED STATES POSTAL SERVICE




                  Stand-by Time

            Management Advisory




                                        August 12, 2011

Report Number HR-MA-11-003
                                                                        August 12, 2011

                                                                         Stand-by Time

                                                        Report Number HR-MA-11-003




IMPACT ON:                                   to workload. Our survey work showed
Detroit, MI and Dallas, TX Processing        the use of stand-by time has
and Distribution Centers (P&DCs).            significantly decreased, therefore, we
                                             elected not to conduct additional
WHY THE OIG DID THE AUDIT:                   fieldwork at this time.
Our objective was to determine whether
the Postal Service accurately recorded       WHAT THE OIG RECOMMENDED:
stand-by time.                               We recommend the vice president,
                                             Network Operations, assess
WHAT THE OIG FOUND:                          inappropriate use of stand-by overtime
We found that Dallas and Detroit P&DC        nationwide, especially in Function 1, and
managers did not always record               implement internal controls to address
stand-by time properly, resulting in         usage and recording issues identified.
improper stand-by overtime charges and       We also recommended enhancing
institutional stand-by charges being         management controls to ensure
incorrectly charged to operational           employees and supervisors accurately
stand-by codes. Stand-by overtime was        report and record stand-by time.
improperly charged because managers
and supervisors at these P&DCs did not       WHAT MANAGEMENT SAID:
always ensure employees clocked into a       Management agreed with the findings
productive operational code when taken       and recommendations, stating they will
off of a stand-by operation. In addition,    reissue guidelines for using and
we found employees incorrectly charged       recording stand-by overtime and for
institutional stand-by time to operational   recording stand-by time; and they will
stand-by codes because managers and          establish monthly tracking and
supervisors did not provide adequate         monitoring by area, district, and plant.
oversight of workhours.
                                             AUDITORS’ COMMENTS:
Postal Service policy states that            Management’s comments were
employees placed on stand-by time            responsive and we believe emphasizing
must be clocked into the correct             policies and procedures, along with
stand-by operational number.                 monthly tracking and monitoring, should
Inappropriate charges to stand-by            resolve the issues identified in the
overtime and erroneous reporting of          report.
operational and institutional stand-by
codes result in a flawed picture of          Link to review the entire report.
workhours and hinder management’s
ability to adjust employee complement
August 12, 2011

MEMORANDUM FOR:            DAVID WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS

                                E-Signed by Mark Duda
                             VERIFY authenticity with e-Sign




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Stand-by Time
                           (Report Number HR-MA-11-003)

This report presents the results of our review of stand-by time (Project Number
11YG016HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Charles E. Howe
    Victor Benavides
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Trending of Stand-by Time .............................................................................................. 2

Improper Recording of Stand-by Overtime ...................................................................... 3

Improper Recording of Institutional and Operational Stand-by Time ............................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Management’s Comments ........................................................................ 10
Stand-by Time                                                                                         HR-MA-11-003




Introduction

This report presents the results of our review of stand-by time (Project Number
11YG016HR000). Our objective was to determine whether the U.S. Postal Service
accurately recorded stand-by time. This review was self-initiated and addresses
financial and operational risk. See Appendix A for additional information about this audit.

The Postal Service records stand-by hours for career bargaining unit employees who
are guaranteed workhours, as required by applicable National Labor Agreements, 1
when there is insufficient work available. Stand-by time is used for unplanned impacts2
that effect employee complement, unplanned, low-work-volume periods on a particular
day or days; or other unplanned events such as equipment breakdown. The Postal
Service has two categories of stand-by hours: operational, defined as a short-term use
in response to situations that are not likely to continue; and institutional, defined as
hours used for employees placed on stand-by under provisions in National
Agreements. 3

Nationwide stand-by time has declined in recent years, from 1,249,278 hours
($30,794,715) in fiscal year (FY) 2009 to 875,540 hours ($21,984,811) in FY 2010. In
the first 6 months of FY 2011, stand-by time totaled 170,666 hours ($4,329,794). 4
However, at a time when the Postal Service is challenged to operate more efficiently,
monitoring stand-by time is critical to ensuring their ability to effectively manage the
workforce.

Conclusion

Nationwide stand-by time has declined in the last 2 years due to factors including
reductions in complement to align more closely with workload, planned retirements and
retirement offerings 5made to APWU employees. During our survey, we visited the
Dallas and Detroit Processing and Distribution Centers (P&DCs), two locations with the
most stand-by time. We found that Postal Service officials at these P&DCs did not

1
  American Postal Workers Union (APWU) represents clerks in Post Offices (POs) across the U.S. (Function 1), and
National Association of Letter Carriers (NALC) represents letter carriers (Function 2).
2
  As an example, an event that may result in excessing or repositioning of staff. Such events require impact
statements, which include a summary of the impact and the number of employees affected; and it requires approval
by district and area officials.
3
  Joint Contract Interpretation Manual (JCIM), Article 7.2.C, June 2007.
4
  Dollar values calculated using the average straight time hourly and average overtime hourly rates from the National
Payroll Hour Summary Reports, September 30, 2009 (FY 2009); September 28, 2010 (FY 2010); and March 1, 2011
(FY 2011).
5
  Reduced mail volume has resulted in the need to reduce complement to match workload. According to Postal
Service management, planned retirements and retirement offerings are helping postal management better align
workload with employee complement resulting in less down time for the existing workforce, and reductions in stand-
by time usage.



                                                          1
This report has not yet been reviewed for release under FOIA or the Privacy Act.
Distribution should be limited to those within the Postal Service with a need to know.
Stand-by Time                                                                                        HR-MA-11-003



always record stand-by time properly, which resulted in improper stand-by overtime
charges and incorrect charges to operational stand-by codes. In addition, we reviewed
the stand-by time recorded in the two districts to assess whether there were trends of
excessive or improper use by employees or other indications of fraud regarding the use
of stand-by time and we did not identify any indications of improper or fraudulent use.
As a result of our survey work and because the use of stand-by time has significantly
decreased, we elected not to conduct additional fieldwork at this time.

Trending of Stand-by Time

We reviewed trending data for nationwide stand-by time and found that, overall, there
have been significant decreases over the past 2 fiscal years (see Figure 1). 6 A number
of factors contributed to this recent decline, including reduction in complement aligning
more closely with workload, retirements, and retirement offerings made to APWU
employees.

Although nationwide use of stand-by time hours has declined, we noted that use of
stand-by time spiked in the Q4, FY 2009. We determined that this spike was, in large
part, due to aggressive plant consolidation efforts and excessing of employees. We also
found that the Northeast, Eastern, and Great Lakes areas experienced increases in
stand-by hours in recent months. Postal Service officials in these areas stated the
increases were a result of significant downtime on Flats Sequencing System (FSS)
machines and late arrival of mail to FSS sites. In addition, the APWU reached
agreement with Postal Service officials at headquarters level to place a moratorium on
any craft excessing during the negotiations of the National Contract Agreement. 7

Figure 1:




6
 Data obtained from Enterprise Data Warehouse (EDW)
7
 Postal Service identified circumstances in which employees needed to be moved outside of the craft or installation
due to Fuction-4 audit, area mail processing (AMP) event or other downsizing/restructuring initiative. Instead of
having employees move (excessing) pursuant to regulations under Article 12 of the National Contract, employees
would remain within the same installation/craft, although the reason for the excessing still existed.


                                                         2
Stand-by Time                                                                                        HR-MA-11-003



Improper Recording of Stand-by Overtime

From October 2009 through March 2011, Detroit P&DC employees charged
approximately 1,533 hours ($58,768) to stand-by overtime. During the same period,
Dallas P&DC employees charged approximately 650 hours ($24,914). This occurred
because managers and supervisors at the Detroit and Dallas P&DCs did not always
ensure that employees clocked into a productive operational code when taken off of a
stand-by operation, resulting in the inaccurate recording of stand-by overtime hours.

Management at the Detroit and Dallas P&DCs and headquarters stated that stand-by
overtime should almost never be charged. However, there may be instances in which
Delivery Operations (Function 2 activity) may appropriately charge stand-by overtime; 8
however, Postal Service officials stated that it is never appropriate for individuals in Mail
Processing (Function 1 activity) to charge stand-by overtime. Nonetheless, Function 1
mail processing activities resulted in about 79 percent, 89 percent, and 93 percent of all
stand-by overtime charges nationwide in FYs 2009, through 2010 and FY 2011 (first 6
months), respectively (see Table1). 9

             Table 1: Nationwide Stand-by Overtime Usage, by Function
                                        Function Function        Other
                                           1          2         Function
        FY 2009 Stand-by Overtime        5,964       381          1,180
                 Hours
                 Value                 $ 147,003   $ 9,567      $ 29,947
                       Percent of Total                      79%            5%                 16%
        FY 2010        Stand-by Overtime                  8,651             390                 721
                       Hours
                Value                                  $ 213,243         $ 9,803             $ 18,296
                Percent of Total                          89%              4%                   7%
      FY 2011 Stand-by Overtime                          4,273             223                 111
       (First   Hours
        Two     Value                                  $ 105,337         $ 5,595             $ 2,820
      Quarters) Percent of Total                          93%              5%                  2%
Note: Other functions include customer service, postal vehicle service (PVS), and maintenance functions.

Postal Service policy states that field site managers and supervisors are responsible for
ensuring that the use of stand-by operations are implemented, monitored, and
effectively managed on a daily basis and that staffing adjustments are initiated when
employees are using stand-by time on a regular basis. 10

8
  When a manager requests that an employee work outside of their regular scheduled workday or work week, the
manager may be contractually obligated to provide the employee with 8hours of overtime. Although in overtime
status, an unforeseen incident could occur preventing the employee from being productive, resulting in the employee
being placed on stand-by time.
9
  Data obtained from EDW.
10
   Postal Service policy for Use of Stand-by Time, February 19, 2010.


                                                         3
Stand-by Time                                                                                      HR-MA-11-003




Improper Recording of Institutional and Operational Stand-by Time

Employees at the Detroit and Dallas P&DCs incorrectly charged institutional stand-by
hours to operational stand-by codes. 11 Specifically, employees incorrectly used the
operational code 340 when the reason for their use of stand-by time should have been
applied to the institutional code 603 (see Table 2 in Appendix A for a description of
institutional and operational stand-by codes). This occurred because managers and
supervisors did not provide adequate oversight of workhour allocations to ensure
employees charged their time to the appropriate stand-by codes. In addition, although
we found that area finance managers monitored and tracked the use of stand-by hours
as part of overall workhours; they did not ensure the appropriate recording of
institutional and operational stand-by time. We also noted that before the Postal Service
implemented a policy for the use of stand-by time in February 2010, employees used
one operational code (340) for all stand-by time. Postal Service officials at the Dallas
P&DC stated that employees and supervisors needed additional training to help ensure
that employees charge the correct codes.

Postal Service policy states that employees placed on stand-by time must be clocked
into the correct stand-by operational number. 12 Accurate workhour recording, including
stand-by hours, provides a true picture of workload and productivity.

Inappropriate charges to stand-by overtime and erroneous reporting of operational and
institutional stand-by codes result in a flawed picture of workhours and hinder
management’s ability to adjust employee complement to workload. At a time when the
Postal Service is challenged to operate more efficiently, the accuracy of management
data is critical to ensuring their ability to effectively manage the workforce.

Recommendations

We recommend the vice president, Network Operations:

1. Assess the inappropriate use of stand-by overtime nationwide, especially in Function
   1 and implement internal controls to address usage and recording issues identified.

2. Enhance management controls to ensure employees and supervisors accurately
   report and record stand-by time.

Management’s Comments

Management agreed with the findings and recommendations, stating they will reissue
guidelines for the use and recording of stand-by overtime, and recording of stand-by
11
   When asked why there were so many operational stand-by hours (which should be used for unexpected low work
volumes and as a short-term remedy to breakdowns); management in Detroit and Dallas indicated that most of the
operational stand-by hours were incorrectly charged, and should have been charged as institutional stand-by hours
(which are used for excessing employees when they don’t have enough work).
12
   Postal Service policy for Use of Stand-by Time, February 19, 2010.


                                                        4
Stand-by Time                                                                 HR-MA-11-003



time to all facilities. Management will also establish monthly tracking and monitoring by
area, district, and plant by September 30, 2011. See Appendix B for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and the corrective actions should
resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation(s) can be closed.




                                            5
Stand-by Time                                                                                      HR-MA-11-003



                                 Appendix A: Additional Information

Background

The Postal Service records stand-by hours for career bargaining unit employees who
are guaranteed workhours, as required by applicable national labor agreements, when
there is insufficient work available. 13 Stand-by time is used for planned impacts that
effect employee complement as well as for unplanned, low-work volume periods on a
particular day or days, or other unplanned events such as equipment breakdowns.
Stand-by operations are intended for short-term use in response to situations that are
not likely to continue.

The Postal Service has two categories of stand-by hours: operational, defined as a
short-term use in response to situations that are not likely to continue; and institutional,
defined as hours used for employees placed on stand-by under provisions in national
agreements. 14 Table 2 outlines operational and institutional stand-by codes:

              Table 2: Operational and Institutional Stand-by Codes 15
     Operational
       Code                    Description
             340 Operational Stand-by (Mail Processing)
             353 Operational Stand-by (Customer Service)
             354 Operational Stand-by (Delivery)
             603 Institutional Stand-by (Mail Processing)
             604 Institutional Stand-by (Delivery)
             605 Institutional Stand-by (PVS Operations)
                 606 Institutional Stand-by (Customer Service)
                 614 Operational Stand-by (PVS Operations)
                 790 Institutional Stand-by (Maintenance)

Employees who are directed to clock into stand-by operations are on the clock and
subject to the same direction, supervision, and work rules as when assigned to
productive operations. Employees on stand-by should remain in the facility in an area
removed from normal activity, such as in a break room, meeting room, cafeteria, or an
area designated for stand-by use. Employees must remain ready to assume normal
work activities as needed and directed by supervisors.

Postal Service employees charged approximately 1,249,278 stand-by hours in FY 2009
and 875,540 hours in FY 2010. In addition, Postal Service employees charged
approximately 7,525 stand-by overtime hours in FY 2009 and 9,762 in


   Handbook M-32, Managing Operating Data System (MODS) (4-4.4) March 2009.
13
14
   JCIM, Article 7.2.C, June 2007.
15
   Table 2 data obtained from Postal Service policy for use of stand-by time, February 19, 2010.


                                                          6
Stand-by Time                                                                                            HR-MA-11-003



FY 2010. 16 In FY 2011 (October 1, 2010 through March 31, 2011), 17 Postal Service
employees charged approximately 170,666 stand-by hours and charged 4,607 stand-by
overtime hours.

The total value of charged stand-by hours during FYs 2009 and 2010 was $52,779,525.
During the same period, stand-by overtime hours totaled $654,519. The total value of
stand-by hours during FY 2011 yearto date [(YTD) March 2011] was $4,329,794 and
stand-by overtime hours totaled $178,531.

Objective, Scope, and Methodology

Our objective was to determine how the Postal Service uses stand-by time.

To accomplish our objective, we analyzed EDW and Time and Attendance Collection
System (TACS) data on stand-by time for FYs 2009, 2010, and 2011, (YTD
March 2011). We also calculated Postal Service operational and institutional stand-by
hours and stand-by overtime hours, and costs for FY 2009 through FY 2011,
YTD March 2011).

We interviewed management at Postal Service Headquarters to discuss various
aspects of the use of stand-by time within Postal Service, including why stand-by
overtime hours are used instead of regular productive overtime hours.

We interviewed Postal Service officials at the Detroit and Dallas P&DCs to gain an
understanding of stand-by time usage and tracking and monitoring of stand-by hours
and to discuss issues related to the use of stand-by time.

We judgmentally selected the Detroit and Dallas P&DCs for review because of the high
number of stand-by hours charged by these facilities in FYs 2009, 2010, and 2011, as
demonstrated in the following tables: 18




16
   Data obtained from EDW.
17
   All references to FY 2011 data contained herein refer to FY 2011 partial year data covering the first 2 quarters.
18
   Data obtained from EDW.


                                                           7
Stand-by Time                                                                                          HR-MA-11-003



        TABLE 3: Locations with the most charged Stand-by Hours – FY 2009
                    LOCATION                         HOURS
                    NEW YORK MORGAN P&DC      19
                                                     100,057
                    DALLAS P&DC                      81,505
                    DETROIT P&DC                     79,540
                    CLEVELAND P&DC                   61,027
                    NEWARK PO    20
                                                     50,407
                    PHILADELPHIA NDC 21              49,324
                    SEATTLE P&DC                     39,073
                    MEMPHIS NDC                      35,845
                    BROOKLYN P&DC                    33,022
                    QUEENS P&DC                      31,215
         TABLE 4: Locations with the most charged Stand-by Hours – FY 2010
                    LOCATION                          HOURS
                    DALLAS P&DC                       66,959
                    DETROIT P&DC                      55,292
                    SOUTH FLORIDA P&DC                41,482
                    NEWARK PO                         35,916
                    DETROIT NDC                       34,269
                    NEW JERSEY NDC                    33,019
                    JACKSONVILLE P&DC                 28,828
                    CLEVELAND P&DC                    25,808
                    NORTH TEXAS P&DC                  24,823
                    ATLANTA P&DC                      23,644
        TABLE 5: Locations with the most charged Stand-by Hours – FY 2011
                   LOCATION                          HOURS
                   DALLAS P&DC                       23,092
                   NEW JERSEY NDC                    10,648
                   DETROIT P&DC                      7,717
                   WEST NASSAU P&DC                  5,618
                   ST. LOUIS, MO P&DC                5,548
                   SO JERSEY P&DC                    4,391
                   SOUTH FLORIDA P&DC                4,281
                   KALAMAZOO P&DC                    4,131
                   BALTIMORE P&DC                    3,581
                   CHICAGO NDC                       3,418

19
   P&DC is a central mail facility that processes and dispatches part or all both incoming mail and outgoing mail for a
designated service area. It also provides instructions on the preparation of collection mail, dispatch schedules, and
sorting plan requirements to mailers.
20
   The Postal Service by regulation defines PO as being associated with a city, town, or
village. Stations are established within the corporate limits or boundary, and branches are established
outside the corporate limits or boundary of the city, town, or village in which the PO is located.
39 CFR § 241.2(a)(1).
21
   Network Distribution Center (NDC) is responsible for the oversight of the Bulk Mail Center (BMC) and Logistics and
Distribution Center (L&DC) facilities and networks.


                                                           8
Stand-by Time                                                                    HR-MA-11-003



We reviewed the stand-by time recorded in Detroit and Dallas to assess whether there
were indications of fraudulent use of stand-by time, or excessive use by the same
employees and did not identify any indications of improper or fraudulent use.

We reviewed Handbook M-32, MODS, and Policy for Use of Stand-by Hours to
determine Postal Service responsibilities related to stand-by time.

We conducted this review from January through August 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on June 20, 2011, and included their comments where appropriate.

To perform this audit we relied on computer-generated data from EDW and TACS
applications. We assessed the reliability of EDW and TACS data by reviewing existing
documentation related to the data sources for FYs 2009, 2010, and 2011, (YTD
March 2011) and performed reasonableness checks of data extracted from EDW and
TACS. Additionally, we corresponded with Postal Service officials knowledgeable about
EDW data. Based on our tests of the computer-generated data from these systems, we
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

We did not identify any prior audits or reviews related to the objective of this audit.




                                              9
Stand-by Time                                       HR-MA-11-003



                Appendix B: Management’s Comments




                               10
Stand-by Time        HR-MA-11-003




                11
